IN THE SUPREME COURT OF THE UNITED STATES
No. __-_____

JOHVANNY AYBAR-ULLOA,
PETITIONER,
v.
UNITED STATES OF AMERICA,
RESPONDENT.
PROOF OF SERVICE
I, Heather Clark, do swear or declare that on this date, April 26, 2021, as required by
Supreme Court Rule 29, I have served the enclosed Motion for Leave to Proceed in
Forma Pauperis and Petition for a Writ of Certiorari on each party to the above
proceeding or that party’s counsel, and on every other person required to be served,
by depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001

Johvanny Aybar-Ulloa, #42199-069
Big Spring Correctional Institution
2001 Rickabaugh Drive
Big Spring, TX 79720

Scott A.C. Meisler
Room 1264, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530
I declare under penalty of perjury that the foregoing is true and correct. Executed on
April 26, 2021.
/s/ Heather Clark
Heather Clark
Clark Law Office
P.O. Box 879
Waterford, Connecticut 06385
Tel.: (203) 772-7939
Email: heather@hclarklaw.com

